                          SEMIANNUAL
                          REPORT TO CONGRESS




               OCTOBER 1, 2007   MARCH 31, 2008




U. S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
                                            DOE/IG-0054
Front Cover Photographs

300 ft tower surrounded by sun tracking mirrors at Solar Two Power Plant, Daggett, CA


300-micrometer-thick charge-coupled device (CCD) with more than 21 million pixels
                              Department of Energy
                                   Washington, DC 20585




The Honorable Samuel W. Bodman
Secretary
U.S. Department of Energy
Washington, DC 20585

Dear Secretary Bodman:

I am pleased to submit the Office of Inspector General's (OIG) Semiannual Report to
Congre.s.5. This report summarizes significant OIG activities and accomplishments during
thc \ix month period ending March 3 1 , 2008.

This report retlects our continuing commitment to focus OIG efforts on the issues and
concerns most critical to you, the Administration, the Congress, and the taxpayer. In
particular, the report details OIG accomplishrnents in identifying the Department's most
significant management challenges.

We look lorward to working with you on matters of mutual interest.

                                                    Sincerely,




                                                    Gregory H. Friedman
                                                    Inspector General

Enclosure




                                @    Pr~ntcdb l t h suy ~ n ko n recycled paper
This page intentionally left blank
             Semiannual
             Report to Congress




Table of Contents

Message From the Inspector General...................................................1

Introduction to Our Organization.........................................................3

Significant Audits, Inspections, and Other Reviews............................5

Significant Investigative Activities........................................................15

Positive Results:
Highlights Based on Office of Inspector General Work ....................21

       Congressional Responses . ................................................................22
       Hotline System . ................................................................................22
       Management Referral System . .........................................................23
       Qui Tams ...........................................................................................24
       Intelligence Activities .......................................................................24
       Legislative and Regulatory Review ..................................................24

Statistical Information...........................................................................25
	
	      Audit Reports Issued .........................................................................25
 	 Inspection Reports Issued .................................................................29
	      Audit Reports with Recommendations for Better
         Use of Funds...................................................................................30
	      Audit Reports with Questioned Costs................................................31
    	 Reports Lacking Management Decision............................................32
       Prior Significant Recommendations Not Implemented.....................32
       Summary of Inspections/Special Inquiries Activities........................33
	      Summary of Investigative Activities ................................................. 34




                                                        October 1, 2007 - March 31, 2008                        i
                                      Semiannual
                                     Report to Congress




                                   This page intentionally left blank




ii   Office of Inspector General
        Semiannual
        Report to Congress




Message From the Inspector General
I am pleased to provide the Office of Inspector General’s (OIG) Semiannual
Report to Congress for the reporting period beginning October 1, 2007,
through March 31, 2008. This report highlights our audit, inspection, and
investigative activities which support our commitment to promote effective,
efficient, and economical operations of the U. S. Department of Energy
(Department).

Over the past six months, we have conducted reviews that led to significant
opportunities for programmatic cost savings, operational efficiencies, and
enhanced program results. We issued 45 audit and inspection reports, which
contained recommendations identifying over $14.5 million in potential
savings and questioned costs. In addition, we referred nine investigations
for prosecution; had five criminal convictions; and had investigative
recoveries of over $21.4 million in fines, settlements and restitutions.
Summaries of some of our most notable projects are presented in this report.

As part of its recurring statutory responsibilities, the OIG identifies the
most challenging risks to the Department’s operations and management
processes. The results of our work in this area are provided in our annual
Management Challenges Report. One of the most significant challenges
in 2008 concerns cyber security. During this period, largely because of the
inherent risks associated with managing the Department’s $2.5 billion a
year information technology program, we focused our resources on cyber
security issues such as: (1) the Cyber Security Incident Management
Program; (2) the Management of Publicly Accessible Websites; and,
(3) unclassified cyber security controls. The unclassified cyber security
controls review was mandated by the Federal Information Security
Management Act of 2002. Although the Department remains diligent
in its efforts to improve cyber security, our work identified a number of
operational deficiencies and opportunities for cost savings.

Despite being faced with limited resources, the OIG continues to provide
high quality audit, inspection, and investigative products which yield
significant results that enhance Department operations. Our work as an
organization is dependent upon the professionalism of the OIG staff. I
would like to express my gratitude for the accomplishments of all the OIG



                                     October 1, 2007 - March 31, 2008          1
                                          Semiannual
                                         Report to Congress




                                  employees and commend them for their dedication and commitment to
                                  good government.

                                  Finally, the Secretary, other senior Department officials, and the
                                  Congress have expressed significant interest in our work. We appreciate
                                  their support and look forward to working together to enhance the
                                  Department’s performance.




                                  							                              Gregory H. Friedman
                                  							                              Inspector General




2   Office of Inspector General
         Semiannual
         Report to Congress




Introduction to Our Organization
As mandated by the Inspector General Act of 1978, as amended, the Office
of Inspector General promotes the effective operation of the
U. S. Department of Energy, including the National Nuclear Security
Administration (NNSA) and the Federal Energy Regulatory Commission
(FERC). The OIG’s goal is to ensure that the Department is:

   n	   Fulfilling its program goals effectively;
   n	   Using its resources efficiently in this pursuit;
   n	   Operating within the scope of its legislative mandates;
   n	   Meeting the President’s Management Agenda; and,
   n	   Addressing Department priorities established by the Secretary.

The OIG consists of the immediate office of the Inspector General and the
following components:

Office of Audit Services provides internal and contracted audit activities
for Department programs and operations. The Office strives to provide
reliable, credible, financial and performance information to senior
management, the Congress, and the taxpayer.

Office of Inspections and Special Inquiries conducts performance and
allegation-based inspections, as well as special inquiries in response to
concerns raised by Congress, senior managers of the Department, and
others. The Office also manages the OIG Hotline and Management
Referral System.

Office of Investigations conducts investigations into alleged violations of
law that impact Department programs, operations, facilities, and personnel.
Priority is given to investigations of suspected violations of criminal and
civil statutes, as well as serious administrative misconduct.

Office of Counsel provides legal advice and assistance to the Inspector
General on a wide range of issues.




                                      October 1, 2007 - March 31, 2008        3
                                          Semiannual
                                          Report to Congress




                                  Office of Resource Management provides administrative and
                                  management support to the Office of Inspector General. It also
                                  formulates and executes the OIG budget and is responsible for all
                                  human resource support activities, information technology, strategic
                                  planning, performance reporting, and property management.




4   Office of Inspector General
         Semiannual
         Report to Congress




Significant Audits, Inspections, and
Other Reviews


Management Challenges

As now required by the Reports Consolidation Act of 2000, the OIG
creates an annual list of challenges facing the Department. This effort
also takes into account emerging issues affecting Departmental operations
and highlights activities that demonstrate, in our opinion, systemic or
recurring performance problems. We also developed a “watchlist,” which
consists of significant issues that do not meet the “management challenge”
threshold, yet warrant continued attention by the Department. Based on
work performed by the OIG over the past reporting period, the following
represent the most serious challenges facing the Department:

    n	   Contract Management
    n	   Cyber Security
    n	   Environmental Cleanup
    n	   Human Capital Management
    n	   Project Management
    n	   Safeguards and Security
    n	   Stockpile Stewardship

The “watchlist” consists of: Infrastructure Modernization, and Worker and
Community Safety. (DOE/IG-0782)


Review of Departmental Open Recommendations

At the request of the Chairman of the House Committee on Oversight
and Government Reform, we initiated a review to provide an analysis
of the Department’s audit resolution and follow-up process. We found
that the Department has taken action to close a significant number of
report recommendations. However, as noted in an earlier review of the
Department’s audit resolution and follow-up process, the OIG found that

Public Reports are available in full text on our website at www.ig.energy.gov

                                        October 1, 2007 - March 31, 2008        5
                                          Semiannual
                                          Report to Congress




                                  the Department’s follow-up process could be further strengthened.
                                  Specifically, approximately one-third of the unimplemented
                                  recommendations included in this analysis were not completed prior
                                  to the original estimated completion date. In addition, although
                                  it represented the exception rather than the standard, in some
                                  cases, corrective action plan or status updates were not included
                                  in the required data field within the Department’s tracking system.
                                  (OAS-L-08-07)


                                  Handling of Personally Identifiable Information
                                  Incident

                                  Concerns were raised to the Office of Inspector General regarding the
                                  discovery of Personally Identifiable Information (PII) on the website of
                                  a former Los Alamos National Laboratory (LANL) subcontractor. We
                                  subsequently determined that LANL had taken a number of positive
                                  steps to address the PII incident, but that there were several weaknesses
                                  with respect to the handling of the incident. For example, the reporting
                                  of the possible compromise of PII to the appropriate entities was not
                                  done within required timeframes; LANL had not included 10 affected
                                  individuals on a list it compiled of those whose social security numbers
                                  may have been compromised, so no attempt had been made to notify
                                  the individuals of the incident; and, the subcontractor did not treat
                                  Privacy Act information in accordance with the requirements of its
                                  subcontract. (INS-L-08-04)


                                  Improvements Needed Over Departmental
                                  Sensitive Compartmented Information Access
                                  Program

                                  An inspection was initiated to determine if the Office of Intelligence
                                  and Counterintelligence had adequate controls for granting,
                                  maintaining, and terminating sensitive compartmented information
                                  access authorizations to Department Federal and contractor employees.
                                  We found a lack of internal controls and recommended establishing




6   Office of Inspector General
         Semiannual
         Report to Congress




improved safeguards to ensure compliance with existing requirements.
Management agreed with our recommendations. (DOE/IG-0790)


Internal Control System Needed Over Royalty Oil

The OIG initiated an audit to evaluate the effectiveness of the Department’s
control system over the receipt of royalty oil for the nation’s Strategic
Petroleum Reserve. Our audit found discrepancies in the number of barrels
received versus the amount scheduled for delivery. The Department took
no action to resolve or explain the differences. Further, required contractor
documentation was not always sufficient to ensure that royalty oil receipts
were accurately recorded and reported. Also, the Department had not
addressed the potential vulnerabilities associated with contractors acting as
both the shipping agent for Department of Interior’s Mineral Management
Service and the receiving agent for the Department of Energy.
(DOE/IG-0786)


Nevada Test Site Contract Transition Activities

The OIG conducted an audit to determine whether contract transition
activities for the new management contract at the Nevada Test Site were
effective in protecting the government’s interest, and whether relocation
costs were allowable, allocable, and reasonable. We found that during
this transition, employee concerns records were not retained as required
by Federal regulations and $86,112 in questionable relocation costs were
incurred. We recommended that the Contracting Officer modify the
contract to require the retention of employee concerns files consistent with
Departmental orders and Federal Administrative Record Schedules, and
determine the allowability of questioned relocation costs. (OAS-M-08-02)




Public Reports are available in full text on our website at www.ig.energy.gov

                                        October 1, 2007 - March 31, 2008        7
                                                  Semiannual
                                                  Report to Congress




                                          Concerns Over Excess Charges at Los Alamos
                                          National Laboratory

                                          The OIG initiated an inspection in response to multiple complaints
                                          alleging irregularities in cost estimating and charging by a LANL
                                          subcontractor. We found that actual costs exceeded estimated costs
                                          by more than 20 percent for 75 percent of the work order tasks we
                                          reviewed. We also found other financial management and internal
                                          control weaknesses and made recommendations to strengthen the
                                          processes associated with the reported activities. (DOE/IG-0780)

                                          Improvements Needed for Publicly Accessible
                                          Websites

                                          An audit was initiated to determine whether the Department was
                                          maintaining publicly accessible websites that were secure and managed
                                          in accordance with Federal requirements. Our audit revealed a
                                          number of weaknesses in the Department’s security of its websites.
                                          Management agreed with our recommended improvements over these
                                          publicly accessible websites. (DOE/IG-0789)


                                                     Management Controls Over Operations
                                                     of the Integrated Disposal Facility at
                                                     the Hanford Site

                                                         The OIG conducted an audit to determine whether it would
                                                         be cost-effective to start up Hanford’s Integrated Disposal
                                                         Facility (IDF) in 2010, as planned. Our audit found that it
                                                         would not be economical based on the currently projected
                                                         volumes of waste requiring disposal. Specifically,
                                                         construction of facilities, which are to produce waste
    Waste Receiving and Processing at Hanford Site.      identified for IDF, have been delayed. Potential savings
                                             could total approximately $13 million by postponing operations of
                                             the IDF until 2017 when low-activity waste generated at the Waste
                                             Treatment Plant will be available for disposal. We recommended
                                             that the Chief Operating Officer for Environmental Management



8      Office of Inspector General
         Semiannual
         Report to Congress




re-evaluate current plants to start up operations of the IDF in 2010.
(OAS-M-08-04)


Cyber Security Incident Management Program

In response to cyber attacks on Federal information systems, the OIG
conducted an audit to determine if the Department had developed an
integrated and effective cyber security incident management program.
Generally, we found the lack of a unified, Department-wide cyber incident
response strategy. The Department, consequently, may be unable to
respond to successful attacks; recognize and develop response strategies
for systemic attacks; and, ensure that systems and the critical, operational,
and personally identifiable information they contain are adequately
protected. We made recommendations to help the Department prepare for
and respond to emerging threats. (DOE/IG-0787)


Concerns Over the Chronic Beryllium Disease
Prevention Program at the Y-12 National Security
Complex

Beryllium processing is an important mission of the Department’s Y-12
National Security Complex in Oak Ridge, Tennessee. As a consequence
of this mission, the Department’s worker safety program has recognized
the possibility that beryllium remains in buildings as well as on equipment
and other surfaces that may pose risks of beryllium sensitization or Chronic
Beryllium Disease.

In November 2006, our office received an allegation that Y-12 workers
were not adequately protected from beryllium exposure. In response,
we initiated an audit to determine whether the site contractor had
implemented surface contamination controls in accordance with its
Prevention Program. This audit included three buildings where beryllium
operations were historically co-located with non-beryllium operations and
focused on surface contamination outside of beryllium operations. Our
review found that the contractor had not consistently implemented key
controls in non-beryllium operations areas as required by its Prevention
Public Reports are available in full text on our website at www.ig.energy.gov

                                        October 1, 2007 - March 31, 2008        9
                                         Semiannual
                                         Report to Congress




                                 Program. Specifically, the contractor had not always (1) posted signs
                                 alerting workers to the potential for beryllium surface contamination
                                 or (2) performed or documented hazard assessments for beryllium
                                 contamination. As a result, the contractor may not be fully mitigating
                                 potential risk to workers exposed to beryllium in non-beryllium
                                 operations areas. (DOE/IG-0783)


                                 Security Concerns at the Y-12 National
                                 Security Complex

                                 In response to an OIG Hotline complaint, an OIG inspection found
                                 that proper protocols were not followed when a contractor employee
                                 brought an unclassified laptop computer into a Y-12 Limited Area.
                                 Subsequently, security staff failed to:

                                    n	   properly secure the subject laptop computer;

                                    n	   report the incident within 32 hours as required; and,

                                    n	   timely report the discovery that as many as 37 additional laptop
                                         computers may have been improperly introduced into the
                                         Limited Area.

                                 Our report made specific recommendations to management at Y-12 to
                                 help strengthen policies at the complex. The OIG also recommended
                                 that management hold accountable those responsible for the breach.
                                 (DOE/IG-0785)


                                 Improvement Still Needed for Pandemic
                                 Influenza Planning

                                 On November 1, 2005, the President required Federal agencies that
                                 perform mission-critical functions to develop agency pandemic
                                 influenza plans. We conducted an inspection to determine if the
                                 Department was taking appropriate and timely actions regarding its
                                 pandemic influenza planning. We concluded that while Headquarters



10 Office of Inspector General
         Semiannual
         Report to Congress




and many Department sites were making progress, much remained to
be implemented. For example, we noted that only 53 of 80 Department
organizations had submitted their pandemic plans. (DOE/IG-0784)


Improvements Needed Over Department’s
Uranium Leasing Program

The OIG initiated an audit to determine if the Department was effectively
administering its Uranium Leasing Program. We found that the
Department failed to (1) re-evaluate the methodology for calculating lease
royalties since 1982, despite changes in market price and supply; and, (2)
collect final production royalty payments in a timely manner. Management
concurred with our recommendations and initiated corrective action.
(OAS-M-08-05)


Follow-up on Departmental Unclassified Foreign
Visits and Assignments Program

In 2002, the OIG reported that the Department had not adequately
controlled unclassified foreign visits and assignments. The OIG initiated
a follow-up review to determine whether the Department had improved
its management of the Foreign Visits and Assignments Program. The
Department had addressed several previously reported issues. Additional
and continuing weaknesses, however, diminished the effectiveness of
controls designed to reduce the security risk associated with foreign
visits and assignments. When viewed collectively, these problems or
programmatic shortcomings caused us to conclude that security risks
associated with the Departmental program remained higher than necessary.
(DOE/IG-0791)


Improved Safety Measures Needed at
Department Laboratories

According to Department regulations, the Department and its contractors
should use best practices and national consensus standards when

Public Reports are available in full text on our website at www.ig.energy.gov

                                        October 1, 2007 - March 31, 2008        11
                                                      Semiannual
                                                      Report to Congress




                                                             establishing safety policies to protect workers. We
                                                             initiated an audit to determine whether the Department’s
                                                             laboratories were employing appropriate safety
                                                             measures specifically tailored for working with
                                                             nanoscale materials based on the standards established
                                                             by the Centers for Disease Control and the National
                                                             Institute of Occupational Safety and Health (CDC/
                                                             NIOSH). We found that the Department and its
                                                             laboratory contractors had not always complied with
                                                             precautionary measures outlined by the CDC/NIOSH.
                                                             In addition, the Department had not established a
                                                             mechanism to disseminate nanoscale materials safety
                                                             information. (DOE/IG-0788)


                                                             Security Procedures at Sandia

  Nanofluid developers at the Argonne National Laboratory.
                                                              In response to an incident involving an unauthorized
                                                              weapon discharge in a controlled security area at
                                            Sandia National Laboratory-New Mexico, we initiated an inspection
                                            to review security policies, procedures, and practices relevant to the
                                            circumstances surrounding the incident. We found related violations
                                            of security policies and procedures. As a result, we made several
                                            recommendations designed to improve the security at the Sandia Site.
                                            Management agreed with the recommendations. (INS-O-08-01)


                                            Formalizing the Department’s Terrorism
                                            Watchlist Nomination Process

                                            In 2003, the Terrorist Screening Center was established as part of
                                            Homeland Security Presidential Directive-6 to consolidate the United
                                            States Government’s terrorism watchlist activities. The information
                                            maintained by the Terrorist Screening Center is available to appropriate
                                            Federal, state, local, tribal, and territorial government officials for
                                            screening purposes. Our inspection revealed that the Department
                                            did not have a formal process in place for nominating individuals for
                                            inclusion to the watchlist. We concluded that it would be prudent for



12 Office of Inspector General
          Semiannual
          Report to Congress




the Department to formalize a process, which would include providing
employee awareness training on watchlist issues. (DOE/IG-0778)


Greater Management Controls Needed Over
the Bonneville Power Administration’s Personal
Property Accountability

We initiated an audit to determine whether Bonneville had effective
controls over its personal property. Our audit found that effective controls
were not in place over Bonneville’s personal property tracked through an
accountability database. For example, Bonneville had not always ensured
that (1) equipment susceptible to loss or theft, such as leased computers,
was entered into the database; (2) inventory information accurately
identified the property location; (3) the transfer of property between
custodians was validated; and, (4) inconsistencies in information about lost
or stolen property were reconciled. (OAS-M-08-01)


Concerns Over Homeland Defense Equipment
Reuse Program

In January 2007, due to management concerns surrounding the control and
dissemination of Homeland Defense Equipment Reuse (HDER) Program
property, the Department’s Oak Ridge Office suspended such property
transfer activities. We subsequently conducted an audit and found key
property controls were not in place as prescribed in established procedures.
Specifically, we found that:

    n	   approved items transferred to the HDER Program could not be
         located; and,

    n	   the HDER Program contractor distributed equipment to first
         responders without prior Department of Homeland Security
         approval.

Management took action to address our recommendations to correct
weaknesses identified during our review. (OAS-M-08-03)

Public Reports are available in full text on our website at www.ig.energy.gov

                                        October 1, 2007 - March 31, 2008        13
                                         Semiannual
                                        Report to Congress




                                 Improvements Are Needed Over East
                                 Tennessee Technology Park’s Security
                                 Clearance Retention Process

                                 Department policy requires security clearances be terminated when
                                 individuals end their association with the Department. A previous
                                 OIG report disclosed that retention of security clearances at the
                                 East Tennessee Technology Park (ETTP) was not consistent with
                                 Department policy. We conducted a follow-up review to determine
                                 whether the practice of maintaining active security clearances at ETTP
                                 for terminated employees was appropriate. Our review disclosed
                                 that security clearances for terminated ETTP employees were
                                 inappropriately and unnecessarily retained beyond the period cited in
                                 Departmental policy. Specifically, we identified 54 former employees
                                 who improperly retained security clearances after their separation from
                                 ETTP, a 50 percent increase from the previous report. (DOE/IG-0779)




14 Office of Inspector General
        Semiannual
        Report to Congress




Significant Investigative Activities

Fraud Awareness Briefings

The OIG regularly provides fraud awareness briefings to groups of Federal
and contractor managers and employees. We tailor our briefings to the
audience and the potential illegal behaviors they may encounter. During
this semiannual reporting period, our office conducted 16 fraud awareness
briefings.

During the last two years, we have reviewed numerous allegations and
opened approximately nine investigations as a result of information
provided to our office subsequent to fraud awareness briefings. For
example, an OIG investigation determined that owners and employees
of a metal distribution company orchestrated a company-wide scheme
to provide fraudulent test certifications and substandard metals to the
Government and its contractors in the defense, nuclear, and aerospace
industry.


$15 Million Settlement Agreement Reached
Involving Defective Body Armor

A joint investigation determined that a body armor manufacturer
knowingly participated in the manufacturing and sale of defective body
armor containing Zylon. The body armor company sold the defective body
armor to the Department as well as to other Federal, state, local and tribal
law enforcement agencies. The company involved agreed to pay a total of
$15 million to resolve allegations that it violated the False Claims Act.


Department Employee Received 90-Day
Suspension for Overtime Irregularities

An OIG investigation determined that a Department employee submitted
claims for approximately 3,231 hours in questionable overtime. As a
result of a report to management, the employee was suspended without



                                     October 1, 2007 - March 31, 2008       15
                                         Semiannual
                                        Report to Congress




                                 pay for 90 days. Also, management recommended that the employee’s
                                 security clearance be revoked and procedures be initiated to recoup
                                 approximately $112,782 from the employee.


                                 Former Department Employees and Contractor
                                 Sentenced in Kickback Scheme

                                 An investigation determined that a former contractor paid over
                                 $390,000 in gratuity payments to current and former Western Area
                                 Power Administration employees for their assistance in awarding
                                 a $1.2 million contract. Three employees and the contractor pled
                                 guilty and received sentencing ranging from five months in prison to
                                 five years probation, and were ordered to make restitution payments
                                 ranging from $40,864 to $79,958. The Department will receive a
                                 combined total of $266,892 in restitution.


                                 “Gray” Market Investigation

                                 As previously reported, a joint OIG investigation determined that the
                                 owner and an employee of an information technology sales company
                                 misrepresented and sold “gray” market and counterfeit networking and
                                 computer equipment to the Department of Energy and the Department
                                 of Defense. The owner and the employee of the company both pled
                                 guilty to one count of conspiracy to defraud the Government. During
                                 this reporting period, the owner was sentenced to 5 months home
                                 confinement, 2 years probation, 200 hours of community service, and
                                 ordered to pay approximately $46,995. The employee was sentenced
                                 to 2 years probation, 200 hours community service, and was ordered to
                                 pay $5,452 in fines and restitution. Also, the company, the owner, and
                                 the employee were debarred from Government contracting.




16 Office of Inspector General
        Semiannual
        Report to Congress




Department Grantee Employee Debarred

As previously reported, a joint investigation with the National Science
Foundation (NSF) Office of Inspector General determined that a
Department grantee employee used a purchase card to make fraudulent
purchases, which were charged to grant programs funded by the
Department and the NSF. The individual was sentenced to 16 months
incarceration and 3 years supervised release and ordered to pay restitution
of approximately $18,000. During this reporting period, the grantee was
debarred from Government contracting for a period of three years.


LANL Employee Pleads Guilty

A joint investigation determined that a LANL employee stole seven
General Services Administration fuel cards from the Fleet Management
Division at LANL and exchanged them for cash and drugs. The employee
pled guilty to one count of fraud and related activity in connection with
this theft and was sentenced to three years supervised probation and court
ordered restitution in the amount of $3,468.


Former Department Contractor Employee Returns
$12,500 to the Government as a Result of False
Labor Charges

An OIG investigation determined that a Department contractor employee
claimed and received compensation for hours he did not work. The
contractor employee entered into a Civil Settlement Agreement with the
U. S. Attorney’s Office for the Eastern District of Washington and
reimbursed the Government $12,500. Also, the contractor employee was
terminated as a result of this investigation.




                                     October 1, 2007 - March 31, 2008         17
                                         Semiannual
                                         Report to Congress




                                 Subcontractor Employee Sentenced and
                                 Debarred from Government Contracting

                                 An investigation determined that a Department subcontractor on a long-
                                 term temporary duty assignment submitted false claims for rent and
                                 utilities. The subcontractor employee pled guilty to eight violations of
                                 theft of Government funds and was sentenced to two years probation
                                 and ordered to pay $3,289 in fines and restitution. The subcontractor’s
                                 clearance and employment were terminated. The subcontractor was
                                 also debarred from Government contracting for a period of three years.


                                 Senior Manager Suspended as a Result of a
                                 Report to Management

                                 An OIG investigation determined that a senior Department manager
                                 sought employment with at least four different contractors for whom
                                 he had oversight responsibilities; aided a relative in obtaining a foreign
                                 internship opportunity that was partially funded by a Department
                                 contractor; and, participated in an activity that appeared contrary
                                 to the terms of a recusal statement. As a result of an OIG report to
                                 management, the manager was suspended for three days for violating
                                 the Standards of Conduct for Employees. A record of the suspension
                                 was also placed in the manager’s official personnel file.


                                 Retired Federal Agent Convicted of Fraud

                                 An OIG investigation determined that a grantee made three false
                                 statements when he claimed expenses totaling $62,675 that he did
                                 not incur. The grantee, a retired Federal agent, was found guilty on
                                 three counts of false statements and two counts of wire fraud. He was
                                 sentenced to eight months home detention and ordered to pay fines and
                                 restitution in the amount of $41,000.




18 Office of Inspector General
        Semiannual
        Report to Congress




Grantee Contractor Employee Pleads Guilty to
Mail Fraud

A joint OIG investigation determined that an employee of a grantee
contractor mailed false and fraudulent invoices to a Department grant
recipient and received $608,459 to which he was not entitled. The
employee, along with other co‑conspirators, devised and participated in
a scheme to defraud the Department and receive kickbacks on contracts
where no work was completed. The employee pled guilty in the Northern
District of Illinois to a violation of Mail Fraud. Sentencing is pending.


Response to a Management Report Concerning
Waste Processing Activities at the Idaho National
Laboratory

The OIG received allegations that contractor employees provided false
information on documents relating to waste processing activities at the
Department’s Idaho National Laboratory. This investigation did not
substantiate any criminal misconduct related to the Laboratory’s waste
processing activities and its transporting of waste to the Waste Isolation
Pilot Program. However, it did find that policies and procedures with
regard to the Visual Examination process did not provide clear guidance.
Management concurred with the report recommendation to evaluate
current internal processes.




                                     October 1, 2007 - March 31, 2008        19
                                    Semiannual
                                   Report to Congress




                                 This page intentionally left blank




20 Office of Inspector General
         Semiannual
         Report to Congress




Positive Results: Highlights Based on
Office of Inspector General Work
During this reporting period, the Department took positive actions as a
result of OIG work conducted during the current or previous periods.
Consistent with our findings and recommendations:

   n	   The Department took several actions to improve its cyber security
        posture related to the use of portable electronic devices in Limited
        Areas. The Oak Ridge National Laboratory held 2 sessions with
        approximately 500 cleared personnel to address the importance
        of security to the Laboratory’s mission and to re-emphasize the
        Laboratory’s commitment to security. The Y-12 Site Office
        reviewed and updated local policies and procedures including
        requirements related to laptop computers, equipment seizure, and
        reporting incidents affecting multiple sites.

   n	   The Office of Secure Transportation (OST) initiated actions to
        strengthen its internal controls over the identification and tracking
        of high risk, military-type equipment. OST revised its Purchase
        Requisition Form to identify high risk property at the time of
        acquisition; modified its Sensitive Items List to include significant
        military-type equipment listed in the U.S. Munitions List; and,
        implemented accountability procedures for all law enforcement
        equipment.

   n	   The Department’s Chief Information Officer issued two policy
        documents concerning PII. The first, “Implementation Plan and
        Progress Report on the Department’s Review, Reduction and
        Elimination of Personally Identifiable Information Including
        Social Security Numbers,” established a plan for the Department
        to (1) review current holdings of all PII; (2) ensure such holdings
        are practicable, accurate, relevant, timely, complete, and kept to
        a minimum; and, (3) eliminate the unnecessary collection and
        use of PII within 18 months. DOE Notice 206.5, “Response and
        Notification Procedures for Data Breaches Involving Personally
        Identifiable Information,” addressed data breaches of PII.



                                       October 1, 2007 - March 31, 2008         21
                                         Semiannual
                                         Report to Congress




                                    n	   Pantex installed a fire hazard suppression system at its compressed
                                         gas storage facility; placed a communications system nearby in
                                         order to be able to notify the fire department during an emergency;
                                         updated its signage in areas where hazardous chemicals were
                                         stored; enhanced the fire department’s hazardous chemicals
                                         inspection criteria; conducted random reviews of physical
                                         inventories of its chemical storage facilities; enhanced the
                                         capabilities of its hazardous chemicals database; and, ensured that
                                         all of its eye wash/shower installations were functioning properly.



                                 The Department’s Fiscal Year 2007
                                 Consolidated Financial Statements

                                 An audit of the Department’s Fiscal Year 2007 Consolidated Financial
                                 Statements resulted in an unqualified audit opinion. Pursuant to
                                 requirements established by the Government Management Reform
                                 Act of 1994, the FY 2007 consolidated financial statements were
                                 presented fairly in all material respects the financial position of the
                                 Department. The examination revealed the following two significant,
                                 but non-material, weaknesses: environmental liabilities and unclassified
                                 network and information systems.


                                 Congressional Responses

                                 During this reporting period, the OIG provided information at the
                                 request of Congress in 12 instances.  In addition, the OIG briefed
                                 Committee staff on 6 occasions. 


                                 Hotline System

                                 The OIG operates a Hotline System to facilitate the reporting of
                                 allegations involving the programs and activities under the auspices
                                 of the Department. During this reporting period, 622 complaints
                                 were processed. The OIG Hotline System can be reached by calling
                                 1-800-541-1625 or 202-586-4073.



22 Office of Inspector General
         Semiannual
         Report to Congress




Management Referral System

The OIG operates an extensive Management Referral System. Under
this system, selected matters received through the OIG Hotline or other
sources are referred to the appropriate Department manager or other
Government agency for review and appropriate actions.

The OIG referred 69 complaints to Department management and other
Government agencies during this reporting period and specifically
requested Department management to respond concerning the actions
taken on 43 of these complaints. Otherwise, Department management
is asked to respond if it develops information or takes action that it
believes should be reported. The following demonstrates management’s
use of OIG-provided information to stimulate positive change or to take
decisive action:

   n	   In response to a referral alleging that a Department site office’s
        contract bids, which used to be opened in the presence of all
        bidders, were now being opened behind closed doors, the site
        office acknowledged that its buyers failed to follow applicable
        business services procedures. The site’s business services
        division developed and implemented a number of corrective
        actions to remedy the procedural deficiencies, including remedial
        training for all buyers and subcontract administrators.

   n	   A referral alleging that one of the Department’s site security
        offices was not providing full background information on
        individuals for evaluation by psychiatrists during the security
        clearance process stimulated a dialogue between the Department’s
        Headquarters security office and the site. The dialogue resulted
        in a change of site policy to allow psychiatrists access to full
        background information.




                                     October 1, 2007 - March 31, 2008        23
                                         Semiannual
                                         Report to Congress




                                 Qui Tams

                                 Since 1996, the OIG has been instrumental in working with the
                                 Department of Justice in Qui Tam cases. The OIG is currently working
                                 on 16 Qui Tam lawsuits involving alleged fraud against the Government
                                 in the amount of approximately $142.6 million. These cases are
                                 highly resource intensive, requiring the active participation of OIG
                                 investigative and audit assets. However, they have proven to be targets
                                 of opportunity within the Department of Energy with a high return on
                                 our investments.


                                 Intelligence Activities

                                 The OIG issued two quarterly reports pursuant to Executive Order
                                 12863, “President’s Foreign Intelligence Advisory Board.” The Order
                                 requires the Inspectors General of the Intelligence Community to report
                                 to the Intelligence Oversight Board concerning intelligence activities
                                 the Inspectors General have reason to believe may be unlawful or
                                 contrary to Executive Order or Presidential Directive. No intelligence
                                 activities, contrary to Executive Order or Presidential Directive, were
                                 reported during this period.


                                 Legislative and Regulatory Review

                                 The Inspector General Act of 1978, as amended, requires the OIG
                                 to review and comment upon legislation and regulations relating to
                                 Department programs and to make recommendations concerning the
                                 impact of such legislation or regulations on Departmental economy
                                 and efficiency. The OIG coordinated and reviewed 44 legislative and
                                 regulatory items during the reporting period.




24 Office of Inspector General
                                           Semiannual
                                           Report to Congress




	                                Statistical Information




                                    Audit Reports Issued
                                    October 1, 2007 to March 31, 2008

                                                                     Date of                Questioned
    Report Number                        Title                                   Savings
                                                                      Issue                   Costs

                    Selected Aspects of the East Tennessee
                                                                      10-18-07
      IG-0779       Technology Park’s Security Clearance Retention
                    Process

                    Continuity of Operations at Bonneville Power
      IG-0781                                                         11-06-07
                    Administration

                    Management Challenges at the Department of
      IG-0782                                                         12-13-07
                    Energy

                    Beryllium Surface Contamination at the Y-12
      IG-0783                                                         12-17-07
                    National Security Complex

      IG-0786       Department of Energy’s Receipt of Royalty Oil     01-04-08


                    The Department’s Cyber Security Incident
      IG-0787                                                         01-16-08
                    Management Program

                    Nanoscale Materials Safety at the
      IG-0788                                                         02-28-08
                    Department’s Laboratories

                    Management of the Department’s Publicly
      IG-0789                                                         03-13-08
                    Accessible Websites

                    The Department’s Unclassified Foreign Visits
      IG-0791                                                         03-24-08
                    and Assignments Program
                    Management Controls over the Bonneville
      OAS-M-08-01   Power Administration’s Personal Property          10-01-07   $700,000
                    Accountability

                    Contract Transition Activities at the Nevada
      OAS-M-08-02                                                     11-26-07               $86,112
                    Test Site




                                                                      October 1, 2007 - March 31, 2008   25
                                                  Semiannual
                                                  Report to Congress




                                      Audit Reports Issued
                                      October 1, 2007 to March 31, 2008

                                                                        Date of              Questioned
   Report Number                          Title                                    Savings
                                                                         Issue                 Costs

                     Management Controls over Implementation
     OAS-M-08-03     of the Homeland Defense Equipment                  12-11-07
                     Reuse Program


                     Management Controls over Operations of the
     OAS-M-08-04                                                        12-18-07             $13,000,000
                     Integrated Disposal Facility at the Hanford Site


                     Management Controls over the Department
     OAS-M-08-05                                                        01-23-08              $700,000
                     of Energy’s Uranium Leasing Program


                     Follow-Up on the Depleted Uranium Process at
      OAS-L-08-01                                                       10-11-07
                     the Y-12 National Security Complex

                     Department’s Implementation of the Strategic
      OAS-L-08-02    Integrated Procurement Enterprise System –         11-28-07
                     Overall Project Planning

                     The Department of Energy’s Implementation
      OAS-L-08-03                                                       12-11-07
                     of Revised OMB Circular No. A-123

                     Department’s Implementation of the Strategic
      OAS-L-08-04    Integrated Procurement Enterprise System –         01-28-08
                     Security Planning

                     Contact-Handled Transuranic Waste
      OAS-L-08-05    Characterization Capabilities at the Idaho         01-28-08
                     National Laboratory

      OAS-L-08-06    Federal Managers’ Financial Integrity Act          02-06-08

                     Analysis of Open Office of Inspector
      OAS-L-08-07                                                       02-21-08
                     General Recommendations

                     Accountability of Sensitive and High Risk
      OAS-L-08-08                                                       03-21-08
                     Property at the Nevada Site Office




26 Office of Inspector General
                                       Semiannual
                                       Report to Congress




                                Audit Reports Issued
                                October 1, 2007 to March 31, 2008

                                                                                           Questioned
Report Number                       Title                        Date of Issue   Savings
                                                                                             Costs

                Interim Audit of Thomas Jefferson National
                Accelerator Facility Costs Claimed under
 OAS-C-08-01                                                       01-15-08                 $14,438
                Contract DE-AC05-84ER40150 for Fiscal Years
                2003 through 2006

                Assessment of Changes to the Internal Control
                Structure and Their Impact on the Allowability
                of Costs Claimed by Bechtel Nevada
 OAS-V-08-01                                                       12-07-07
                Corporation Under Department of Energy
                Contract No. DE-AC08-96NV11718 During
                Fiscal Year 2006

                Assessment of Changes to the Internal Control
                Structure and Their Impact on the Allowability
 OAS-V-08-02                                                       12-18-07
                of Costs Claimed by Bechtel Jacobs Company,
                LLC During Fiscal Year 2006

                Assessment of Changes to the Internal Control
                Structure and Their Impact on the Allowability
                of Costs Claimed by Battelle Energy Alliance,
 OAS-V-08-03                                                       01-02-08
                LLC Under Department of Energy Contract No.
                DE-AC07-05ID14517 During
                Fiscal Year 2006

                Assessment of Changes to the Internal Control
                Structure and Their Impact on the Allowability
                                                                   01-09-08
 OAS-V-08-04    of Costs Claimed by Oak Ridge Associated
                Universities for Fiscal Years 2003 through
                2006

                Assessment of Changes to the Internal Control
                Structure and Their Impact on the Allowability
 OAS-V-08-05                                                       01-15-08                 $60,028
                of Costs Claimed by UT-Battelle, LLC
                During Fiscal Year 2006




                                                                     October 1, 2007 - March 31, 2008   27
                                                  Semiannual
                                                  Report to Congress




                                     Audit Reports Issued
                                     October 1, 2007 to March 31, 2008

                                                                                                Questioned
   Report Number                          Title                       Date of Issue   Savings
                                                                                                  Costs

                     Assessment of Changes to the Internal Control
                     Structure and Their Impact on the Allowability
     OAS-V-08-06                                                        02-04-08
                     of Costs Claimed by Washington Savannah
                     River Company, LLC During Fiscal Year 2006

                     Assessment of Changes to the Internal Control
                     Structure and Their Impact on the Allowability
                     of Costs Claimed by and Reimbursed
     OAS-V-08-07     to Honeywell Federal Manufacturing &               03-06-08
                     Technologies, LLC Under Department of Energy
                     Contract No. DE-AC04-01AL66850 During
                     Fiscal Year 2006

                     Federal Energy Regulatory Commission’s Fiscal
     OAS-FS-08-01                                                       11-06-07
                     Year 2007 Financial Statement Audit


                     Department of Energy’s Fiscal Year 2007
     OAS-FS-08-02                                                       11-09-07
                     Consolidated Financial Statements


                     Management Letter on the Audit of the
     OAS-FS-08-03    Department of Energy’s Consolidated Financial      01-02-08
                     Statements for Fiscal Year 2007


                     Information Technology Management Letter
                     on the Audit of the Department of Energy’s
     OAS-FS-08-04                                                       01-29-08
                     Consolidated Balance Sheet for Fiscal Year
                     2007




28 Office of Inspector General
                                                 Semiannual
                                                 Report to Congress




                                      Inspection Reports Issued
                                        October 1, 2007 to March 31, 2008


 Report Number                                              Title                                    Date of Issue



    IG-0778              The Consolidated Terrorism Watchlist Nomination Process at the                10-02-07
                         Department of Energy


    IG-0780              Work Order Estimate and Cost Issues for Site Support Services at Los          10-25-07
                         Alamos National Laboratory


    IG-0784              The Department of Energy’s Pandemic Influenza Planning                        12-19-07


    IG-0785              Incident of Security Concern at the Y-12 National Security Complex            01-02-08


    IG-0790              Office of Intelligence and Counterintelligence Internal Controls Over the     03-21-08
                         Department of Energy’s Sensitive Compartmented Information Access
                         Program


    INS-0-08-01          Unauthorized Weapon Discharge and Related Security Policies and               02-28-08
                         Procedures at Sandia National Laboratory-New Mexico


    INS-L-08-01          Allegations of an Inadequate Sandia National Laboratories Ethics              10-29-07
                         Investigation


    INS-L-08-02          Consolidation of the Department of Energy and National Nuclear                10-30-07
                         Security Administration Counterintelligence Programs


    INS-L-08-03          Protective Force Staffing Issues at the Pantex Plant                          11-05-07


    INS-L-08-04          Potential Compromise of Personally Identifiable Information at Los            11-13-07
                         Alamos National Laboratory


    INS-L-08-05          Internal Controls Over Purchase Card Transactions at the Kansas City          01-16-08
                         Plant


Does not include non-public reports


                                                                                 October 1, 2007 - March 31, 2008    29
                                                        Semiannual
                                                        Report to Congress




                       Audit Reports with Recommendations
                              for Better Use of Funds
                                          October 1, 2007 to March 31, 2008

   The following table shows the total number of audit reports and the total dollar value of the recommendations that
   funds be put to better use by management.

                                               Total             One Time              Recurring               Total
                                              Number             Savings                Savings               Savings


   A. Those issued before the
      reporting period for which no                7           $904,530,602           $6,000,000            $910,530,602
      management decision has been
      made:*

   B. Those issued during the                     29             $700,000                   $0               $700,000
      reporting period:

       Subtotals (A + B)                          36           $905,230,602           $6,000,000            $911,230,602


   C. Those for which a management
      decision was made during the                16            $7,895,743                  $0               $7,895,743
      reporting period:*

       (i) Agreed to by management:                             $1,423,460                  $0               $1,423,460

       (ii) Not agreed by management:                           $5,772,283                  $0               $5,772,283


   D. Those for which a management
                                                  15                  $0                    $0                  $0
      decision is not required:


   E. Those for which no management
      decision has been made at the                5           $898,034,859           $6,000,000            $904,034,859
      end of the reporting period:*


   Definitions:

   Funds put to better use: Funds that could be used more efficiently by implementing recommended actions.
   Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include unsupported costs.
   Management decision: Management’s evaluation of the finding and recommendations included in the audit report and the
   issuance of a final decision by management concerning its response.


  *The figures for dollar items include sums for which management decisions on the savings were deferred.



30 Office of Inspector General
                                                  Semiannual
                                                  Report to Congress




                      Audit Reports with Questioned Costs
                                           October 1, 2007 to March 31, 2008


 The following table shows the total number of audit reports and the total dollar value of questioned and unsupported
 costs.
                                                                                                            Unsupported
                                                      Total Number            Questioned Costs
                                                                                                                 Costs

 A. Those issued before the reporting period
    for which no management decision has                      0                  $20,987,573                       $0
    been made:*


 B. Those issued during the reporting period:                 5                  $13,836,578                    $24,000


     Subtotals (A + B)                                        5                  $34,824,151                    $24,000


 C. Those for which a management decision                     5                  $28,643,165                    $24,000
    was made during the reporting period:*

     (i) Value of disallowed costs:                                              $15,286,041                       $0

     (ii) Value of costs not disallowed:                                         $13,220,546                       $0

 D. Those for which a management decision
                                                              0                         $0                         $0
    is not required:

 E. Those for which no management
    decision has been made at the end of                      0                   $6,317,564                    $24,000
    the reporting period:*


 Definitions:


 Questioned costs: A cost that is (1) unnecessary; (2) unreasonable; (3) unsupported; (4) or an alleged violation of law,
 regulation, contract, etc.
 Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include unsupported costs.
 Management decision: Management’s evaluation of the finding and recommendations included in the audit report and the
 issuance of a final decision by management concerning its response.



*The figures for dollar items include sums for which management decisions on the savings were deferred.




                                                                                    October 1, 2007 - March 31, 2008        31
                                         Semiannual
                                         Report to Congress




                                 Reports Lacking Management Decision

                                 The Department of Energy has a system in place to track audit reports
                                 and management decisions. Its purpose is to ensure that
                                 recommendations and corrective actions indicated by audit agencies and
                                 agreed to by management are addressed as efficiently and expeditiously
                                 as possible. Listed below are the audit reports over six months old that
                                 were issued before the beginning of the reporting period and for which no
                                 management decision had been made by the end of the reporting period.
                                 The reason a management decision had not been made and the estimated
                                 date for achieving management decision is described below.

                                 		     Management Audits

                                    	   IG-0669: Use and Management of Mobile Communications
                                        Services, December 14, 2004 - The management decision has
                                        been signed by the Chief Information Officer and is currently
                                        in the review and concurrence process. This should occur by
                                        August 30, 2008.

                                    	   IG-0753: Recovery Costs for the Proprietary Use of the
                                        Advanced Photon Source, January 11, 2007 - The finalization of
                                        the management decision is awaiting the resolution of a policy
                                        issue related to full cost recovery. A final management decision is
                                        expected by September 30, 2008.


                                 Prior Significant Recommendations Not
                                 Implemented

                                 As of March 2008, closure actions on recommendation in 45 OIG report
                                 had not been fully implemented within 12 months from the date of
                                 report issuance. The OIG is committed to working with management
                                 to expeditiously address the management decision and corrective
                                 action process, recognizing that certain initiatives will require long-
                                 term, sustained, and concerted efforts. The Department has closed
                                 275 recommendations in the last 6 months. Management updates
                                 the Departmental Audit Report Tracking System on a quarterly basis,
                                 most recently in March 2008. Information on the status of any report
                                 recommendation can be obtained through the OIG’s Office of Audit
                                 Services or Office of Inspections or Special Inquiries.



32 Office of Inspector General
                                                     Semiannual
                                                     Report to Congress




                                      Summary of Inspections/
                                      Special Inquiries Activities
                                           October 1, 2007 to March 31, 2008

 Inspections/Special Inquiries open as of October 1, 2007                                                                        109

 Inspections/Special Inquiries opened during this reporting period                                                                 6

 Inspections/Special Inquiries closed during this reporting period                                                                14

 Reports issued (includes non-public reports)                                                                                     13

 Inspections open as of March 31, 2008                                                                                           101

 Report Recommendations:

     Issued this reporting period                                                                                                 41

    Accepted by management this reporting period                                                                                  43

     Implemented by management this reporting period                                                                              46

 Complaints referred to Department management/others:                                                                             69

     Referrals to Department management requesting a response for OIG evaluation                                                  43

 HOTLINE ACTIVITY

 Hotline calls, emails, letters, and other complaints                                                                            622*

 Hotline calls, emails, letters, and other complaints predicated                                                                 152

 Unresolved Hotline predications from previous reporting period                                                                    3

     Total Hotline predications                                                                                                  155

 Hotline predications transferred to the Management Referral System                                                               81

 Hotline predications closed based upon preliminary OIG activity                                                                  59

 Hotline predications pending disposition                                                                                         15

     Total Hotline predications                                                                                                  155
*The figure includes complaints outside the purview of the Office of Inspector General.  The complainants were referred to the
appropriate Federal, state, local, or private organization for assistance, if applicable. 




                                                                                             October 1, 2007 - March 31, 2008           33
                                                          Semiannual
                                                         Report to Congress




                              Summary of Investigative Activities
                                             October 1, 2007 to March 31, 2008


   Cases open as of October 1, 2007                                                                                           239

   Cases opened during period                                                                                                  59

   Cases closed during period                                                                                                  85


   Multi-Agency Task Force Cases Opened                                                                                        24


   Qui Tam investigations opened                                                                                                 1

   Cases currently open as of March 31, 2008                                                                                  211


   IMPACT OF INVESTIGATIONS:

   Accepted*                                                                                                                     8

   Indictments                                                                                                                 11

   Criminal convictions                                                                                                          9


   Pretrial diversions                                                                                                           0

   Civil actions                                                                                                                 1


   Suspensions/Debarments                                                                                                      19

   TOTAL DOLLAR IMPACT                                                                                          $21,357,886**
   (Fines, settlements, recoveries)



   ADMINISTRATIVE SANCTIONS:

   Employees                                                                                                                     4
   Contractors/Businesses                                                                                                      20

                                                                                                                               22
   Recommendations to management for positive change and other actions
  *Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting period.
  **Some of the money collected was the result of task force investigations.




34 Office of Inspector General
Feedback Sheet

The contents of the March 2008 Semiannual Report to Congress comply with the requirements
of the Inspector General Act of 1978, as amended. If you have any suggestions for making the
report more responsive, please complete this feedback sheet and return it to:



U. S. Department of Energy
Office of Inspector General (IG-1)
Washington, DC 20585

ATTN: Felicia Jones




Name:_______________________________________________________________

Daytime Telephone Number: ____________________________________________



Comments/Suggestions/Feedback:
(Please attach additional sheets if needed.)




For media inquiries, please dial (202) 253-2162 for assistance.
          U. S. Department of Energy
               Office of Inspector General



                      Call the
                     HOTLINE
                           if you suspect
                Fraud, Waste, Abuse,
or Mismanagement by a DOE Employee,
            Contractor, or Grant Recipient



                Call 1-800-541-1625 or
                      (202) 586-4073




                      U. S. Department of Energy
                   1000 Independence Ave., S. W.
                        Washington, DC 20585

Additional information on the OIG and reports can be found at www.ig.energy.gov
This page intentionally left blank
This page intentionally left blank
 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
